CERTIFICATE OF SERVICE
NO. TBD
Roque De La Fuente, Rocky
Petitioner(s)
v.
Alex Padilla, California Secretary of State; State of California
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ROQUE
DE LA FUENTE, ROCKY PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Amie L. Medley
Office of Attorney General
California Department of Justice
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
(213) 269-6226
amie.medley@doj.ca.gov
Counsel for Respondents

Lucas DeDeus

October 17, 2019
SCP Tracking: Rossi-316 Hill Street-Cover White

